                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

Case Number: I04020004                                                                         Page 1 of 1




                  The subject' was alleged to have misused NSF award funds and to have received h d s for
         work that had been completed before NSF made the award.2 The subject had both a closed
         SBWSTTR~Phase I and an open SBWSTTR Phase I1 award. Upon request, the subject provided
         documentation to support the expenditure of funds under the closed award and the expenditures to
         date under the active award. The documents supported the expenditure of the funds on the proposed
         project, although several of the expenditures occurred after the expiration of the Phase I award and
         before the Phase 11 award began. Further investigation revealed that the subject's company was
         undergoing financial difficulties at the end of the Phase I award, including large outstanding
         liabilities. However, the fixed price nature of SBIRISTTR awards and the circumstances in this case
         suggest that no fraud was involved.
                  The subject also provided a large collection of emails chronicling correspondence between
         project staff. The emails provided sufficient evidence to show that the scientific concept, as well as
         its technological application, is still under development. SBWSTTR awards provide h d s not only
         the development of a scientific concept (e.g.,a new algorithm), but also the application of that
         concept through technology to a specific industrial/cornmercial problem. Thus the emails dispel the
         allegation that the subject had completed and marketed the technology before NSF made the awards.

                   Accordingly, this case is closed.




           Small Business Innovation Research / Small Business Technology Transfer
           -                                                                                         I




                                                                                                                  11
NSF OIG Form 2 (1 1/02)
                                                                                                    I
